Supreme Court, U.S.
FILED

AUG I 3 202!
OFFICE OF THE CLERK

No. 21-

<238

3fn tfje

Supreme Court of tl)c ®nttcU States!
KEITH FOSTER,
Petitioner;
v.
p

UNITED STATES OF AMERICA, ET AL.,

p

Respondent.

r

On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit
PETITION FOR A WRIT OF CERTIORARI

Keith Foster
Petitioner Pro Se
P.O. BOX 12706
Fresno, CA 93779
(559) 412-7945
TKFOSTER1002@GMAIL.COM

p

August 12,2021
SUPREME COURT PRESS

♦

(888) 958-5705

♦

Boston, Massachusetts

\

RECEIVED
AUG 1 7 2021

1

QUESTIONS PRESENTED
1. How can panels of Ninth Circuit Court of
Appeals affirm decisions as matters of law, that are
in direct conflict with previously established binding
Precedents of the Ninth Circuit Court of Appeals;
and Precedents established by the United States
Supreme Court?
2. Should the petitioner have been granted a
judgment of Acquittal by the District Court?
3. Should the petitioner’s 28 U.S.C. § 2255 motion
have been granted by the District Court?
4. Should the Trial Judge have recused himself
from presiding over the petitioner’s trial?
5. Should the petitioner have been granted a
Certificate of Appealability by the Ninth Circuit
Court of Appeals?

11

LIST OF PROCEEDINGS
United States Court of Appeals for the Ninth Circuit
No. 20-15375
United States of America, Plaintiff-Appellee,
v. Keith Foster, Defendant-Appellant.
Date of Final Order: May 14, 2021

U.S. District Court Eastern District of California
No. l:15-Cr-0104
United States of America, Respondent,
v. Keith Foster, Petitioner.
Date of Final Order: March 6, 2020

United States Court of Appeals for the Ninth Circuit
No. 17-10496
United States of America, Plaintiff-Appellee,
v. Keith Foster, Defendant-Appellant.
Date of Final Opinon: June 20, 2019
Date of Rehearing Order: September 3, 2019

!

Ill

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED..........................

1

LIST OF PROCEEDINGS.............................

11

TABLE OF CONTENTS................................

111

TABLE OF AUTHORITIES..........................

v

PETITION FOR A WRIT OF CERTIORARI

1

OPINIONS BELOW......................................

2

JURISDICTION..............................................

2

CONSTITUTIONAL AND
STATUTORY PROVISIONS...................

3

STATEMENT OF THE CASE.......................

3

A. Case History...................................................

3

B. Analysis of the Court of Appeals Reason­
ing for Denial of Petitioner’s Direct Appeal.... 6
C. Analysis of the Court of Appeals’ Denial
of Petitioner’s Request for a Rehearing
and Hearing En Banc.................................... 18
D. Analysis of the Court of Appeals Denial
of Petitioner’s Request for Certificate of
Appealability................................................... 19
E. Analysis of Ineffective Assistance of
Counsel........................................................... 25
F. Analysis of Judicial and Prosecutorial
Misconduct...................................................... 29
REASONS FOR GRANTING THE PETITION...... 35
CONCLUSION

36

IV

TABLE OF CONTENTS - Continued
Page
APPENDIX TABLE OF CONTENTS
Opinions and Orders
Order of the United States Court of Appeals for
the Ninth Circuit Denying the Certificate of
Appealability (May 14, 2021).............................. la
Order of the United States District Court for the
Eastern District of California Denying
Petitioner’s Motion for a Certificate of
Appealability (March 6, 2020)............................ 2a
Order of the United States District Court for the
Eastern District of California Denying
Petitioner’s 28 U.S.C. § 2255 Petition
(January 13, 2020)................................................. 6a
Mandate of the United States Court of Appeals
for the Ninth Circuit
(September 11, 2019)............................................ 24a
Memorandum Opinion of the United States Court
of Appeals for the Ninth Circuit
(June 20, 2019)...................................................... 25a
Rehearing Order
Order of the United States Court of Appeals for
the Ninth Circuit Denying Petition for
Rehearing (September 3, 2019)........................ 28a

V

TABLE OF AUTHORITIES
Page
CASES
Anders v. California,
386 U.S. 738 (1967).................

25

Bracy v. Gramley;
520 U.S. 899 (1977).................

30

Buck v. Davis;
137 S. Ct. 759 (2017).................

1, 25

Caperton v. A. T. Massey Coal Co,
556 U.S. 868, (2009)...............

30

Cole v. Eagle,
704 F.3d 624 (9th Cir. 2012)...

32

Darden v. Wain wright,
477 U.S. 168 (1986).................

34

Direct Sales Co. v. United States,
319 U.S. 703 (1943).................

7, 13

Driscoll v. Delo,
71 F.3d 701 (8th Cir. 1995)....

27

Evitts v. Lucey,;
469 U.S. 387 (1967).................

25

Fiore v. White,
531 U.S. 225 (2001).................

18, 35

Foster v. Chatman,
136 S. Ct. 1737 (2016)........

21

Gray v Lynn,
6 F.3d 265 (5th Cir. 1993)........

28

Hurles v. Ryan,
752 F.768 (9th Cir. 2014).......

30

VI

TABLE OF AUTHORITIES - Continued
Page
Jackson v. Virginia,
443 U.S. 307 (1979)...............

18, 23, 35

Johnson v. Baldwin,
114 F.3d 835 (9th Cir. 1997)..

28, 31, 35

Johnson v. Mississippi,
403 U.S. 212 (1971).................

31

Johnson v. United States,
218 F.2d 578 (9th Cir. 1954).

35

Kimmelman v. Morrison,
477 U.S. 365 (1986)................

26

McMann v. Richardson,
397 U.S. 759 (1970)................

25

Miller v. Keeney,
882 F.2d 1428 (9th Cir. 1989).

25

Offutt v. United States,
348 U.S. 11 (1954)..................

32

Siddiqi v. United States,
98 F.3d 1427 (2nd Cir. 1999)

34

Strickland v. Washington,
466 U.S. 668 (1984).................

passim

Summit v. Blackburn,
795 F.2d 1237 (5th Cir. 1986)

15, 28

Thomas v. Goldsmith,
979 F.2d 746 (9th Cir. 1992)..

24

Turney v. Ohio,
273 U.S. 510 (1971)................

31

United States v. Adamson,
291 F.3d 606 (9th Cir. 2002).

33

Vll

TABLE OF AUTHORITIES - Continued
Page
United States v. Clardy,
540 F.2d 439 (9th Cir. 1976)..........

6

United States v. Colon,
549 F.3d 565 (7th Cir. 2008)..........

passim

United States v. Cronic,
466 U.S. 648 (1984)..........................

25

United States v. EscobardeBright,
742 F.2d 1196 (9th Cir. 1984)........

passim

United States v. Feldman,
853 F.2d 648 (9th Cir. 1988)...........

5, 14

United States v. Foster;
772 Fed. Appx. 544 (9th Cir. 2019)

passim

United States v. Glover,
97 F.3d 1345 (10th Cir. 1996).........

26

United States v. Gonzalez,
563 Fed. Appx. 582 (9th Cir. 2014)

22

United States v. Horn,
946 F.2d 738 (10th Cir. 1991).........

7, 13, 14, 18

United States v. Kissick,
69 F.3d 1048 (10th Cir. 1995)........

26

United States v. Lennink,
18 F.3d 814 (9th Cir. 1994)............

passim

United States v. Loveland,
825 F.3d 555 (9th Cir. 2016)..........

passim

United States v. Moe,
781 F.3d 1120 (9th Cir. 2014)........

passim

United States v. Montgomery,
150 F.3d 983 (9th Cir. 1998)...........

6, 17

Vlll

TABLE OF AUTHORITIES - Continued
Page
United States v. Ramirez;
714 F.3d 1124 (9th Cir. 2013)........

passim

United States v. Roberts,
319 Fed. Appx. 575 (9th Cir. 2009)

23

United States v. Stauffer;
922 F.2d 508 (9th Cir. 1990)..........

22

United States v. Tarazon,
989 F.2d 1045 (9th Cir. 1993)........

23

United States v. Zarowitz,
326 F. Supp 90 (C.D. CA 1971)......

30

Walker v. Deeds,
50 F.3d 670 (9th Cir. 1995)............

32

Withrow v. Larkin,
421 U.S. 35 (1975)............................

30

Zuniga v. UnitedCanCo.,
812 F.2d 443 (9th Cir. 1987)...........

19

CONSTITUTIONAL PROVISIONS
U.S. Const, amend. V

3, 29, 33, 35

U.S. Const, amend. VI...

..... 3, 25, 35

U.S. Const, amend. VIII

3, 35

STATUTES
28U.S.C. § 2101

2

28 U.S.C. § 2255.

i, 32

IX

TABLE OF AUTHORITIES - Continued
Page
JUDICIAL RULES
Sup. Ct. R. 10........

2

OTHER AUTHORITIES
Black’s Law Dictionary,
Tenth Edition 2014 ..

15

1

PETITION FOR A WRIT OF CERTIORARI
Keith Foster (hereinafter “Petitioner”) petition for
a Writ of Certiorari to review the judgment of the
United States Court of Appeals for the Ninth Circuit,
rendered in his consolidated appeal; which judgment
affirmed the denial by the district court of his 28
U.S.C. § 2255 motion to either vacate the sentences
imposed by the United States District Court for the
Eastern District of California or, alternatively, to allow
an evidentiary hearing to attempt to determine if the
government had presented Constitutionally sufficient
evidence to obtain a drug conspiracy conviction.
In addition, the Petitioner is requesting the
petition for a Writ of Certiorari to review the judgment
of the United States Court of Appeals for the Ninth
Circuit, rendered in his Request for a Certificate of
Appealability, which was denied and the court of
appeals opined, “ . . . the appellant has not made a
substantial showing of the denial of a constitutional
right.” The petitioner believes the Ninth Circuit Court
of Appeals’ denial of his Certificate of Appealability
is in direct conflict with the Supreme Court precedent
established in Buck v. Davis, 137 S. Ct. 759 (2017). In
Buck, the Supreme Court held that the COE inquiry is
not coextensive with a merit analysis; and the Supreme
Court decided, “the only question is whether the
applicant has shown that jurists of reason could
disagree with the district court’s resolution of an
applicant’s constitutional claims or that jurists could
conclude the issues presented are adequate to deserve
encouragement to proceed further.” The Supreme
Court added, “ . . . When a court of appeals sidesteps

2

the COA process by first deciding the merits of an
appeal, and then justifying its denial of a COA based
on its adjudication of the actual merits, it is in
essence deciding an appeal without jurisdiction.”

♦
OPINIONS BELOW
The order of the United States Ninth Circuit
Court of Appeals denying a certificate of appealability
is included below at App.la. The order of the United
States District Court for the Eastern District of
California is included below at App.2a.

♦
JURISDICTION
The preliminary judgment of the court of appeals
for the denial of the direct appeal was entered on June
20, 2019. (App.25a). The judgment to deny the petition
for panel rehearing and the denial of a rehearing en
banc, was rendered on September 3, 2019. (App.28a)
The final judgment on the denial of the direct appeal
was entered on September 11, 2019. (App.24a). The
judgment for the request for a Certificate of Appealability was timely filed and the judgement was entered
May 14, 2021. (App.la). This petition is timely filed
pursuant to 28 U.S.C. § 2101(c).
Also, Jurisdiction on Writ of Certiorari is estab­
lished pursuant to Rule 10(a) of the Rule of the
Supreme Court of the United States.

3

CONSTITUTIONAL AND
STATUTORY PROVISIONS
The Fifth Amendment of the United States Con­
stitution provides in pertinent part: “No person shall
be . . . deprived of life, liberty or property, without due
process of law.”
The Sixth Amendment of the United States Con­
stitution provides in pertinent part: “In all criminal
prosecutions, the accused shall.. . have the Assistance
of Counsel for his defence.”
The Eighth Amendment of the United States
Constitution provides in pertinent part: No person
shall be subjected to “cruel and unusual punishment.”

STATEMENT OF THE CASE
A.

Case History

The court of appeals in this case held the govern­
ment established sufficient evidence at trial to sustain
a drug conspiracy conviction. The court of appeals
also held that petitioner’s rights to effective counsel
were not denied by either trial counsel or appellate
counsel. The court of appeals held that the trial judge
did not commit errors which denied the petitioner due
process of law. Lastly, the court of appeals held that
the petitioner did not make a substantial showing of
the denial of a constitutional right, thereby denying the
petitioner’s request for a Certificate of Appealability.

4

The court of appeals has rendered decisions in
this case, that are in direct conflict with previously
established binding precedents of the Ninth Circuit,
decisions on the same matter decided by other circuits,
statutory law and matters decided by the Supreme
Court.
The court of appeals denied the petitioner’s
direct appeal on June 20, 2019 (See United States v.
Foster, 772 Fed Appx. 544 (9th Cir. 2019). (App.26a):
The court of appeals held:
“Defendant Keith Foster, a former Deputy
Police Chief from the Fresno Police Depart­
ment, appeals his jury convictions for conspi­
ring to possess with the intent to distribute
marijuana and heroin in violation of 21 U.S.C.
841 and 846. He contends that the evidence
was insufficient, that his trial counsel ineffec­
tive, that the jury should have been instructed
on a buyer-seller relationship, and that the
court erred in denying his request to unseal
juror information. For the reasons below,
we affirm.
There is sufficient evidence to support both
convictions. Foster’s telephone calls and text
messages with co-conspirators Rafael Guz­
man and Lashon Jones sufficiently demon­
strated Foster’s role in the conspiracy to
distribute heroin. Jones relayed heroin orders
from buyers to Foster and assured Foster
that the deals would benefit both of them.
Foster discussed heroin types, prices, and
meeting times with a supplier Guzman, and
relayed those details back to Jones. On an

5

agreed-upon date, Foster attempted to meet
Guzman to obtain the drugs, but the deal
fell through when Jones did not answer her
phone.
Foster’s phone calls with his nephew Denny
sufficiently established Foster’s role in a
conspiracy to distribute marijuana. Denny
and Foster discussed marijuana quantities,
meeting times, and prices, and Foster repeat­
edly pressed Denny for money for Foster’s
‘boy’.

After later learning that Denny had been
arrested with six pounds of marijuana in
his car, Foster expressed frustration that
Denny had not asked for ‘cover’ and Foster
said he would see what his ‘narc guys’ could
do for Denny.
Although Counsel arguably performed defi­
ciently by not moving for acquittal after the
Government’s case in chief. Foster’s ineffec­
tive assistance of counsel claim fails because
there was no prejudice. The evidence was
sufficient to support both convictions, so a
motion for acquittal would have been denied.
See United States v. Feldman, 853 F.2d 648,
665-66 (9th Cir. 1988) (Failure to move for
acquittal cannot be the basis for a finding of
ineffective assistance if the crimes of convic­
tion are supported by sufficient evidence).
Counsel’s decision not to request a buyerseller instruction appears to be the product
of strategy, not incompetence. See Strickland
v. Washington, 466 U.S. 668, 689-90 (1984).

6

The theory of the defense was that Foster
was investigating the activities of others in
his capacity as Deputy Police Chief. A buyerseller instruction would have clashed with
this defense. For similar reasons, the District
Court did not err in failing to sua sponte
instruct the jury on a buyer-seller relation­
ship, United States v. Montgomery, 150 F.3d
983, 996 (9th Cir. 1998).
Finally, the District Court did not err in deny­
ing Foster’s motion to unseal juror informa­
tion. Although Foster may have suspected
that jurors had read prejudicial news articles,
the record contains no basis for that suppo­
sition. Speculation alone cannot overcome
the presumption of juror impartiality. See
United States v. Clardy, 540 F.2d 439, 447
(9th Cir. 1976) (Finding similar request frivo­
lous where defendant had not shown ‘that
any of the jurors had seen such material’).”
Emphasis added.
B.

Analysis of the Court of Appeals Reasoning for
Denial of Petitioner’s Direct Appeal

The court of appeals held the government estab­
lished sufficient evidence to support both convictions
against the petitioner. The court of appeals stated in
reference to Count 11, Conspiracy to possess with the
intent to distribute heroin: “Foster’s telephone calls
and text messages with co-conspirators Rafael Guzman
and Lashon Jones sufficiently demonstrated Foster’s
role in the conspiracy to distribute heroin.”
The court of appeals stated in reference to Count
12, Conspiracy to possess with the intent to distribute

7

marijuana: Foster’s phone calls with his nephew Denny
sufficiently established Foster’s role in a conspiracy
to distribute marijuana.”
The court of appeals ruling on the sufficiency of
evidence to sustain a drug conspiracy conviction is in
direct conflict with the previously established binding
precedents of United States v. Melchor-Lopez, 627
F.2d 886 (9th Cir. 1980), United States v. Moe, 781
F.3d 1120, 1124 (9th Cir. 2014), United States v.
Lennink, 18 F.3d 814, 818-19 (9th Cir. 1994), United
States v. Ramirez; 714 F.3d 1124, 1140 (9th Cir. 2013),
United States v. Loveland,, 825 F.3d 555 (9th Cir.
2016), United States v. Escobar de Bright, 742 F.2d
1196, 1199 (9th Cir. 1984); and, the persuasive prece­
dent of United States v. Horn, 946 F.2d 738, 741 (10th
Cir. 1991), citing Direct Sales Co. v. United States,
319 U.S. 703, 711 (1943).
In United States v. Melchoz^Lopez, the court
of appeals decided:
“Telephone conversations discussing the
purchase of cocaine and brown heroin, which
prices were discussed. .. . were insufficient to
prove a conspiracy.”
The court went on to add, “There can be no
conviction for guilt by association, and it’s
clear that mere association with members of
a conspiracy, the existence of an opportuni­
ty to join a conspiracy, or simple knowledge,
approval of, or acquiescent in the object or
purpose of the conspiracy, without an inten­
tion and agreement to accomplish a specific
illegal objective, is not sufficient to make
one a conspirator.”

8

The Melchor-Lopez court held, “The govern­
ment proved that each appellate engaged in
conversations which might have ended in
firm commitments but it failed to establish
the meeting of the minds to consummate an
illegal transaction which is essential to con­
spiracy.”
The Melchor-Lopez court reversed the appel­
lants’ convictions on the ground of insuffi­
ciency of the proof as to the essential
element of the conspiracy offense [Meeting
of the Minds].” Emphasis added.
In United States v. Moe, the court of appeals
decided the essential elements of a drug
conspiracy required the government to prove:
1. An agreement to accomplish an illegal
objective; and
2. The intent to commit the underlying
offense.
The Moe court held, “ . . . a conviction for conspir­
acy requires proof of an agreement to commit a crime
other than the crime that consists of the sale [of drugs]
itself and mere sales to other individuals do not
establish a conspiracy to distribute or possess with
the intent to distribute ... ” Id. Quoting United States v
Lennink, 18 F.3d 814, 819 n.l (9th Cir. 1994). Empha­
sis added.
The Moe court went on to explain, “ . . . not every
agreement to commit an illegal objective may serve
as the basis for a conspiracy conviction. Id. The Moe
court added it would: “Uphold a conviction for conspi­
racy between a buyer and seller where there is evi-

9

dence of a prolonged and actively pursued course of
sales coupled with the seller’s knowledge and a
shared stake in the buyer’s illegal venture”. Moe. At
1125, quoting United States v. Ramirez, 714 F.3d
1124, 1140 (9th Cir. 2013).
In United States v. Lennink, and reaffirmed in
United States v. Ramirez, the court of appeals held:
“To prove conspiracy, the government had
to show more than a defendant sold drugs
to someone knowing that the buyer would
later sell [the drugs] to others. It had to
show that the defendant had an agreement
with the buyer pursuant to which the buyer .
would further distribute the drugs. In the
end, what the court is looking for is evidence
of a prolonged and actively pursued course
of sales coupled with the defendant’s know­
ledge of and a shared stake in the buyer’s
illegal venture.” Emphasis added.
In United States v. Loveland, the court of
appeals reaffirmed and emphasized;
“In the context of conspiracy, when deciding
if there is sufficient evidence of an
agreement, courts look for evidence of a
prolonged and actively pursued course of
sales coupled with the seller’s knowledge of
and a shared stake in the buyer’s illegal
venture.”
The Loveland court added,
“Conspiracy is an agreement to commit a
crime and the intent to commit the
underlying offense.

10

We assume for purposes of decisions that
Loveland intended to commit the crime of
possession of methamphetamine for the
purpose of distribution. And we assume for
the purpose of decision that the Sanchez
group knew Loveland was probably reselling
the methamphetamine they sold him because
the quantity exceeded what he could use
himself. But, Lovelands intent to possess
for purpose of redistribution and the Sanchez
group’s sales to him do not add up to
conspiracy. The Sanchez group has to have
agreed with Loveland, expressly or tacitly.
that Loveland should resell the metham­
phetamine in order for them to have
conspired together.”
The Loveland court added, “We have a long list
of decisions directed at the problem of distinguishing
between the sale of an illegal substance and conspiracy
of the seller with the buyer for the buyer to resell.
The parties agree that United States v. Ramirez and
United States v. Lennink are most challenging cases
for the government, but disagree on whether Lovelands
conviction can stand despite these precedents.”
The Loveland court explained, “Lennink held
that evidence was insufficient to support a conviction
for conspiracy to distribute narcotics, where Lennink
distributed marijuana, but there was no evidence
that he agreed with the people whom he sold or gave
the drugs that they should distribute to others.
Conspiracy requires proof of an agreement to commit
a crime other than the crime that consists of the
sales itself.”

11

The Loveland court then reasoned: “The case
before us [Lovelancft is stronger for the government
than Lennink on the facts because in Lennink, arguably
the quantities were too small to support an inference
that Lennink knew his distributees would redistribute.
But we worded our holding broadly; ‘To show a
conspiracy, the government must show not only that
Lennink gave drugs to other people knowing that
they would further distribute them, but also that he
had an agreement with these individuals to so fur­
ther distribute the drugs. In so holding, we agreed
with the First. Seventh and Tenth circuits.”
The Loveland court also compared the holdings
of Lennink and Ramirez, “Unlike Lennink, which
involved small amounts of marijuana, Ramirez involved
repeated sales of escalating quantities of methamphetamine. But we held that even repeated sales and
large quantities could not sustain a conspiracy convic­
tion. in the absence of involvement of Ramirez in his
buyer's drug sales.”
The Loveland court also examined the buyer-seller
relationship compared to a conspiracy. “Though courts
once called the buyer-seller rule a narrow exception
to conspiracy, a particularly thoughtful Supreme Court
of Connecticut decision, State v. Allen, notes that
the buyer-seller relationship is a failure of proof of
conspiracy, not an exception to conspiracy.
As we held in Lennink and reiterated in Moe,
conspiracy requires proof of an agreement to commit
a crime other than the crime that consists of the sale
itself, and the government must show that the buyer
and seller had an agreement to further the drug in
question. Distribution is a different crime from conspir­
acy to distribute. For the seller to be conspiring with

12

the buyer to redistribute, there has to be an agreement.
not iust surmise or knowledge, between the seller
and the buyer for the buyer to redistribute. The
agreement is an element of the crime and has to be
proved.” Emphasis added.
The Loveland court continued, “Of course, like any
elements, the agreement may be proved by direct
evidence or by circumstantial evidence. And the
agreement can be explicit or tacit. But the agreement
has to be there. A relationship of mere seller and
buyer, with the seller having no stake in what the
buyer does with the goods, shows the absence of a
conspiracy, because it is missing the element of an
agreement for redistribution.”
Lastly, the Loveland court explained by referencing
Colon [UnitedStates v. Colon, 549 F.3d 565 (7th Cir.
2008)], “What distinguishes a conspiracy from its
substantive predicate offense is not just the presence
of an agreement, but an agreement with the same joint
criminal objective to distribute drugs. This objective
is missing when the conspiracy is based solely on an
agreement between a buyer and seller for the sale of
drugs.”
Finally in Loveland, the court ruled, “There was
no evidence of an agreement, so the evidence was
insufficient to support Lovelands conspiracy convic­
tion. Therefore, we reverse the judgment and vacate
Lovelands conviction and sentence.”
In United States v. Escobar de Bright, the court
held, “A conspiracy is defined as an agreement between
two or more people to commit an unlawful act which
arguably requires some form of meeting of the minds.”

13

The Escobar de Bright court added, “The formal
requirements of the crime of conspiracy have not
been met unless, an individual conspires with at
least one bonafide coconspirator.”
The Escobar de Bright court also opined, “There
are some constitutional rights so basic to a fair trial
that their infraction can never be treated as harmless
error. A failure to instruct the jury on the defend­
ant’s theory of a case is reversible per se.
The Escobar de Bright court added, “The right to
have the jury instructed as to the defendant’s theory
of a case is one of the rights so basic to a fair trial
that failure to instruct where there is evidence to
support the instruction can never be considered
harmless.”
The Escobar de Bright court continued, “A defend­
ant is entitled to an instruction concerning his theory
of the case if it is supported by law and has some
foundation in the evidence. A defendant is entitled to
have a jury instruction on any defense which provides
a legal defense to a charge against him and which
has some foundation in the evidence, even though
the evidence may be weak, insufficient, inconsistent,
or of doubtful credibility.”
In United States v. Horn, citing Direct Sales
Co.v. United States, 319 U.S. 703, 711:
“We cannot sustain a conspiracy conviction
if the evidence does no more than create a
suspicion of guilt or amounts to a conviction
resulting from piling inference on top of
inference.”
The court of appeals stated,

14

“Although Counsel arguably performed defi­
ciently by not moving for acquittal after the
Government’s case in chief, Foster’s ineffective
assistance of counsel claim fails because there
was no prejudice. The evidence was sufficient
to support both convictions, so a motion for
acquittal would have been denied; citing
United States v. Feldman, 853 F.2d 648, 66566 (9th Cir. 1988) (Failure to move for acquit­
tal cannot be the basis for a finding of inef­
fective assistance if the crimes of conviction
are supported by sufficient evidence). Coun­
sel’s decision not to request a buyer-seller
instruction appears to be the product of
strategy, not incompetence; and Strickland v.
Washington, 466 U.S. 668, 689-90 (1984).”
The court of appeals conceded, the petitioner’s trial
attorney performed deficiently by not moving for an
acquittal after the government’s case in chief. How­
ever, the court of appeals erroneously ruled the evidence
presented by the government at trial, was sufficient
to support a drug conspiracy conviction. (See MelchorLopez, Moe, Lennink, Ramirez, Colon, Loveland,
Escobar de Bright, and United States v. Horn)
In addition, In the case against the petitioner,
United States v. Foster; despite having plea agreements
in place which mandated cooperation with the gov­
ernment, none of the coconspirators were called to
testify during the trial. The government’s case in
chief consisted of twenty-three (23) recorded telephone
conversations and four (4) text messages between the
petitioner and the three co-conspirators. During one
conversation the petitioner inquired on the price of
one (l) ounce of heroin and in another conversation

15

the petitioner inquired on the price of one (l) pound
of marijuana.
The government failed to present any evidence
at trial that the petitioner and any coconspirator
had:
1.

An agreement to redistribute either heroin
or marijuana; and

2.

Intent to commit a criminal offense (Meeting
of the Minds).

Also, the government never alleged or presented
any trial evidence that the petitioner ever possessed,
sold, or gave either marijuana or heroin to anyone.
The government also never alleged or presented any
trial evidence that the petitioner ever received any
proceeds from the sale of heroin or marijuana. The
government never alleged or presented any trial evi­
dence that the petitioner was ever associated with
the completion of a single illicit drug transaction.
The government’s case in chief violated the Corpus
Delicti Rule. The corpus delicti rule states,
“In order to secure a conviction, the prosecu­
tion must establish the facts of a
transgression before anyone can be convicted
of having committed that transgression.
This fact of transgression must be estab­
lished with corroborating evidence. The
doctrine prohibits the prosecution from
proving the corpus delicti based solely on
extra-judicial statements. (BLACK’S Law
Dictionary, Tenth Edition 2014).
((Summit v. Blackburn, 795 F.2d 1237 (5th Cir. 1986)
(Counsel deemed constitutionally ineffective for failing

16

to invoke the corpus delicti rule on an uncorroborated
confession).
The aforementioned precedents clearly indicated
the government failed to present sufficient evidence
to support a drug conspiracy conviction, thereby
invalidated the court of appeals argument in United
States v. Feldman
In Escobar de Bright the court of appeals held,
“There are some constitutional rights so
basic to a fair trial that their infraction can
never be treated as harmless error. A fail­
ure to instruct the jury on the defendant’s
theory of a case is reversible per se. The
right to have the jury instructed as to the
defendant’s theory of a case is one of the
rights so basic to a fair trial that failure to
instruct where there is evidence to support
the instruction can never be considered
harmless.
A defendant is entitled to an instruction
concerning his theory of the case if it is sup­
ported by law and has some foundation in
the evidence. A defendant is entitled to
have a jury instruction on any defense
which provides a legal defense to a charge
against him and which has some foundation
in the evidence, even though the evidence
may be weak, insufficient, inconsistent, or
of doubtful credibility.”
In addition, the court of appeals in Loveland
examined the buyer-seller relationship compared to a
conspiracy and opined,

17

“ . . . though courts once called the buyerseller rule a narrow exception to conspiracy,
a particularly thoughtful Supreme Court of
Connecticut decision, State v. Allen, notes
that the buyer-seller relationship is a fail­
ure of proof of conspiracy, not an exception
to conspiracy/’
The rulings in Escobar de Bright and Loveland
demonstrates the fact that the [petitioner’s] trial
attorney’s failure to request a buyer-seller jury in­
struction was either a willful disregard of the rules of
law [established in Escobar de Bright and Loveland
or incompetence. Either way, the court of appeals
citation of Strickland to determine the petitioner’s
trial attorney’s failure to request a buyer-seller instruc. tion was a product of strategy, cannot stand.
The court of appeals also stated, “The theory of
the defense was that Foster was investigating the
activities of others in his capacity as Deputy Police
Chief.
A buyer-seller instruction would have clashed
with this defense. For similar reasons, the District
Court did not err in failing to sua sponte instruct the
jury on a buyer-seller relationship, United States v.
Montgomery, 150 F.3d 983, 996...”
As previously mentioned, the rulings in Escobar
de Bright and Loveland clearly demonstrates the court
of appeals citation of United States v. Montgomery to
determine that the district court did not err in failing
to sua sponte instruct the jury on a buyer-seller rela­
tionship, is erroneous.
The court of appeals rulings in affirmation of the
petitioner’s convictions are contradicted by the rules

18

of law established in Melchor-Lopez, Moe, Lennink,
Ramirez, Colon, Loveland, Escobar de Bright, United
States v. Horn, Fiore v. White, 531 U.S. 225 (2001)
and Jackson v. Virginia, 443 U.S. 307, 319 (1979).
Therefore, the court of appeals affirmation of the
petitioner’s convictions are not supported by law;
thus, the convictions and the affirmation have violated
the petitioner’s Constitutional Rights to Equal Pro­
tection of Law and Due Process of Law.
C.

Analysis of the Court of Appeals’ Denial of
Petitioner’s Request for a Rehearing and Hearing
En Banc

On August 8, 2019, the petitioner filed a petition
for panel rehearing and rehearing en banc with the
court of appeals. The petitioner asserted that the
appellate panel’s decision affirming his convictions were
in direct conflict with binding circuit precedents.
(App.28a).
On September 3, 2019, the appellate panel voted
to deny the petition for panel rehearing and stated
“No judge requested a vote on whether to hear the
matter en banc.” (App.28a).
An en banc review of a circuit decision is an
opportunity to reconsider a panel’s decision. The
principle purpose of an en banc review is to establish
uniformity within the circuit among all panels. Such
a review is an “extraordinary procedure intended to
bring to the attention of the entire court an issue of
exceptional public importance or a panel decision
that conflicts with precedent of the Supreme Court or
the circuit.”

19

An en banc review will resolve an intra-circuit
conflict between two panels. This process leads to
certainty in the application of the law, which is the
desired outcome of stare decisis (See Zuniga v. United
Can Co., 812 F.2d 443, (9th Cir. 1987)).
The court of appeals decision to deny the
petitioner’s request for a panel rehearing and the
decision not to convene a rehearing en banc; has failed
to correct a [court of appeals] decision which violates
the petitioner’s Constitutional Rights to Equal Pro­
tection of Law and Due Process of Law.
D.

Analysis of the Court of Appeals Denial of
Petitioner’s Request for Certificate of Appealability

On December 10, 2019, the petitioner filed a 28
U.S.C. § 2255 motion in the United States District
Court for the Eastern District of California, Fresno
Division, asserting Ineffective Assistance of Counsel,
prosecutorial misconduct, judicial misconduct and
ineffective assistance of appellate counsel.
On January 13, 2020, the district court denied
the petitioner’s 28 U.S.C. § 2255 motion without
ordering an evidentiary hearing. The District Court
stated:
“Many of the issues raised by the petitioner
were precluded by an opinion by the Ninth
Circuit on direct appeal, that the petitioner
failed to show that the undersigned should
have recused himself, that the petitioner
failed to demonstrate any prejudicial attor­
ney misconduct or ineffective assistance of
counsel, and that the petitioner failed to
identify any prejudicial trial errors.” (App.6a)
i

20

On February 28, 2020, the petitioner filed a
“motion for correction omission” because the district
court failed to address the petitioner’s request for a
certificate of appealability.
On March 6, 2020, the district court denied the
petitioner’s motion for a certificate of appealability.
(App.2a)
On April 1, 2020, the petitioner filed a request
for a certificate of appealability from the United
States District Court for the Eastern District to the
United States Court of Appeals for the Ninth Circuit,
asserting the following:
1)

Petitioner is not procedurally barred from
asserting Ineffective Assistance by his trial
counsel or challenging the sufficiency of evi­
dence to prove the heroin and marijuana
conspiracies.

2)

The Ninth Circuit 's finding that the
petitioner was not prejudiced by his trial
counsel's failures is clearly erroneous.

3)

The petitioner's crimes of conviction lack
the essential elements required for conspir­
acy convictions.

4)

The evidence adduced by the government
was insufficient to prove the existence of
either the heroin or marijuana conspiracies
and therefore the petitioner's convictions
represent a manifest injustice.

5)

The petitioner's trial counsel was ineffective
for failing to recognize that the government
had not met its burden of proof.

21

6)

The petitioner received ineffective assistance
from his Appellate Counsel.

Assertion #1, with exception of the petitioner 's
claim of ineffective assistance by his appellate counsel,
all of the issues were denied by the district court on
the ground that they were precluded from consideration
by the Ninth Circuit decision on the petitioner's
direct appeal.
Considering only the general rule established by
the Supreme Court, the district court's decision would
be correct:
“At least as a general rule, federal prisoners
may not use a motion under 28 U.S.C. § 2255
to relitigate a claim that was previously
rejected on a direct appeal. Foster v.
Chatman,, 136 S. Ct. 1737, 1758 (2016)."
However, like most general rules, there are
exceptions. Continuing with its opinion, the Foster
court went on to hold:
“Absent countervailing considerations, dis­
trict courts may refuse to reach the merits
of a constitutional claim previously raised
and rejected on appeal.”
Such “countervailing considerations” include sit­
uations where “the first decision was clearly erroneous”
and instances where “manifest injustice would other­
wise result.” United States v. Alexander, 106 F.3d
874, 876 (9th Cir. 1997).
The petitioner respectfully asserts that both con­
ditions exist in his case, and that a showing of either
one of these conditions is sufficient to allow him to
assert ineffective assistance by his trial counsel and

22

to challenge the sufficiency of evidence against him
on his 2255 motion.
Assertion #2, the court of appeals determination
the petitioner was not prejudiced by his trial counsel’s
failures, is clearly erroneous. In its decision upholding
the petitioner’s convictions, the court of appeals
conceded that the petitioner’s trial counsel “arguably
performed deficiently by not moving for acquittal
after the government’s case in chief. (App.la). In
fact, the petitioner’s trial attorney failed to make a
motion for acquittal after the close of evidence.
However, the panel decided, these failures made
no difference, “as the evidence was sufficient to support
both conspiracy convictions, so a motion for acquittal
would have been denied.” (App.la) As the panel found
that the petitioner was not prejudiced, it concluded
the petitioner did not receive ineffective assistance.
However, by failing to make a motion for a judg­
ment of acquittal at the close of the government’s
case in chief, the Ninth Circuit’s panel was limited to
reviewing the inactions of the petitioner’s trial counsel
under the plain error standard, rather than the
broader de novo standard. United States v. Stauffer;
922 F.2d 508, 511 (9th Cir. 1990); also see United
States v. Gonzalez, 563 Fed. Appx. 582, 583 (9th Cir.
2014).
As explained by the Ninth Circuit, reversal
based on the plain error standard is the exception,
not the rule:
“Reversal based on plain error is exceptional
and occurs only when necessary to prevent
a miscarriage of justice or to preserve the
integrity and reputation of the judicial

23

process. United States v. Roberts, 319 Fed.
Appx. 575, 578 (9th Cir. 2009) quoting United
States v. Tarazon, 989 F.2d 1045, 1051 (9th
Cir. 1993).”
A de novo review requires a decision:
“After viewing the evidence in the light
most favorable to the prosecution, any
rational trier of fact could have found the
essential elements of the crime beyond a
reasonable doubt. Jackson v. Virginia, 443
U.S. 307, 319...”
The petitioner was clearly prejudiced by his trial
attorney’s failures, due to the limitation placed on
the Ninth Circuit’s review under the plain error stan­
dard, rather than the broader de novo standard. Had
the petitioner’s motion for acquittal been properly
timed, the government’s insufficient evidence [phone
calls and text messages] would have been compared
to the binding precedents establishing circuit law; and
the [drug conspiracy] charges against the petitioner
would have been dismissed in their entirety.
Assertion #3, the petitioner’s crimes of conviction
lack the essential elements required for conspiracy
convictions. The rules of law establishing the suffi­
ciency of evidence required to sustain a drug conspiracy
conviction, are clearly delineated in the precedents
of Melchor-Lopez, Moe, Lennink, Ramirez, Colon,
Loveland and Escobar de Bright, all of which, conflict
with the court of appeals determination that the gov­
ernment established sufficient evidence at trial, to
sustain the drug conspiracy convictions against the
petitioner.

24

Assertion #4, the evidence adduced by the govern­
ment was insufficient to prove the existence of either
the heroin or marijuana conspiracies and therefore the
petitioner’s convictions represent a manifest injustice.
As previously mentioned, the government failed to
establish sufficient evidence to sustain the drug conspi­
racy convictions against the petition (see MelchorLopez, Moe, Lennink, Ramirez, Colon, Loveland and
Escobar de Bright.). Consequently, the petitioner’s
convictions are for crimes that he is actually and
factually innocent of and these convictions represent a
manifest injustice, whereby the petitioner was wrongly
convicted and imprisoned. (See Thomas v. Goldsmith,
979 F.2d 746, 749 (9th Cir. 1992) (Showing of factual
innocence is necessary to trigger manifest injustice
relief)).
Assertion #5, the petitioner’s trial counsel was
ineffective for failing to recognize that the government
had not met its burden of proof. Had the petitioner’s
trial attorney adequately prepared for trial, he would
have been aware of the circuit law established in
Melchor-Lopez, Moe, Lennink, Ramirez, Colon, Love­
land and Escobar de Bright£ and he would have
realized the government had failed to meet its burden
of proof to sustain the drug conspiracy convictions
against the petition and would have prevailed in a
Rule 29 motion.
Assertion #6, the petitioner received ineffective
assistance from his appellate counsel. The district
court’s order denying the petitioner’s 28 U.S.C. § 2255
motion mentions the petitioner’s claim of ineffective
assistance by his appellate counsel only once, and
then only is describing the claim. There was no evi­
dence in the district court’s ruling that the court ever

25

considered the petitioner’s claim that his appellate
counsel was ineffective for failing to assert on direct
appeal that the government had failed to prove the
existence of either the heroin or marijuana conspiracy.
Consequently, the district court could not and did not
rule as to whether the petitioner’s appellate counsel’s
representation fell below an objective standard of
reasonableness and but for this error, the petitioner
would have prevailed on appeal. {See Miller v. Keeney,;
882 F.2d 1428, 1434 (9th Cir. 1989).
The Ninth Circuit Court of Appeals’ denial of the
petitioner’s request for a Certificate of Appealability
is in direct conflict with the Supreme Court precedent
established in Buck v. Davis, supra.
E.

Analysis of Ineffective Assistance of Counsel

The United States Supreme Court has long “recog­
nized that the right to counsel is the right to effective
assistance of counsel” under the Sixth Amendment of
the United States Constitution. In Strickland v.
Washington, 466 U.S. 668, 686: (quoting McMann v.
Richardson, 397 U.S. 759, 771 n.14 (1970); United
States v. Cronic, 466 U.S. 648, 655 (1984), an effec­
tive attorney “must play the role ofan active advocate,
rather than a mere friend of the court.” Evitts v.
Lucey,; 469 U.S. 387, 394 (1967); Cronic at 656; Anders
v. California 386 U.S. 738, 743 (1967):
“The benchmark for judging any claim of
ineffectiveness must be whether counsel’s
conduct so undermined the proper function­
ing of the adversarial process that the trial
cannot be relied on as having produced a
just result. Strickland, at 686.”

26

The Tenth Circuit, in United States v. Glover, 97
F.3d 1345 (10th Cir. 1996), aptly summarized the
Strickland requirement, that every lawyer representing
a criminal defendant can only provide effective repre­
sentation by being a vigorous advocate who challenges
the government’s evidence and effectively presents their
client’s side of the case. The Glover court stated:
“Our analysis is guided both by the Supreme
Court’s broad formulation in Strickland
and by this court’s particularized application
thereof to analogous facts in United States
v. Kissick, 69 F.3d 1048 (10th Cir. 1995).
When counsel has unwittingly relieved the
government of its burden of proof, particu­
larly when the evidence of record does not
satisfy that burden, it is fair to say counsel
has ‘so undermined the proper functioning
of the adversarial process that it cannot be
relied upon on as having produced a just
result.’ Strickland, 466 U.S. at 686.
That is, of course ‘the benchmark for judging
any claim of ineffectiveness.’ Id. See also
Kimmelman v. Morrison, 477 U.S. 365 (1986)
(‘The essence of an ineffective-assistance
claim is that counsel’s unprofessional errors
so upset the adversarial balance between
defense and prosecution that the proceeding
was rendered unfair and the result rendered
suspect.’).”
In Strickland, the Supreme Court considered when
a defense attorney may be constitutionally ineffective
“simply by failing to render ‘adequate legal assistance.’”
466 U.S. at 686 (quoting Cuyler, 466 U.S. at 344.).

27

The petitioner’s trial attorney failed to research
the rules of law governing drug conspiracy convictions
prior to the trial. Thus, the petitioner’s trial attorney
failed to cite the rules of law pursuant to circuit prec­
edent into the trial record; and argue the fact that
the government’s case in chief had not established
the essential elements of a drug conspiracy, as required
by Melchor-Lopez, Moe, Lennink, Ramirez, Colon,
Loveland and Escobar de Bright (See Kimmelman v.
Morrison).
Petitioner’s trial attorney failed to file a Rule 29
motion for a judgment of acquittal, after the govern­
ment’s case in chief, due to the government’s failure
to present constitutionally sufficient evidence to sustain
the drug conspiracy convictions.
The court of appeals also conceded petitioner’s
trial attorney arguably performed deficiently by failing
to file a Rule 29 motion. However, the court of appeals
then contradicted binding circuit precedent and deter­
mined the government’s evidence was sufficient to sup­
port the convictions.
The petitioner’s trial attorney failed to review
the grand jury transcripts and properly prepare for
trial; which prevented the trial attorney from effec­
tive cross-examination of the government’s key law
enforcement witness. Had the trial attorney properly
prepared, the trial attorney would have noticed the
witness’ court testimony was significantly different
from the nwitness’ grand jury testimony, which was
favorable to the petitioner; and could have successfully
impeached the witness. (See Driscoll v. Delo, 71 F.3d
701, (8th Cir. 1995) cert, denied, 519 U.S. 910 (1996)
(Counsel was deemed ineffective in failing to prepare
for the cross-examination of a key prosecution witness

28

and failing to impeach the witness with inconsistent
statements).
The petitioner’s trial attorney also failed to invoke
the corpus delicti rule to prevent the petitioner’s con­
viction from being based solely on speculations and
inferences from uncorroborated telephone calls. {See
(Summit v. Blackburn, supra. (Trial counsel deemed
constitutionally ineffective for failing to invoke the
corpus delicti rule to prevent a conviction based on
uncorroborated extra-judicial statements.)).
The petitioner’s trial attorney also failed to request
a buyer-seller jury instruction, which clearly distin­
guished a buyer-seller relationship from a drug
conspiracy; and failed to object to the obvious defects
in the jury instructions improper citation of the
elements of offense. {See Gray v. Lynn, 6 F.3d 265 (5th
Cir. 1993) (Trial attorney was ineffective in failing to
object to obvious defect in jury instructions on elements
of offense.)
The petitioner’s trial attorney committed numerous
unprofessional errors; but for these errors, including
failure to adequately investigate the petitioner’s rep­
resentations, the result of the proceeding would have
been different. {See Johnson v. Baldwin, 114 F.3d 835
(9th Cir. 1997). (Counsel deemed ineffective for failure
to investigate adequately which resulted in the pre­
sentation of a weak defense.)”
The petitioner’s appellate attorney also failed to
adequately research the rules of law governing drug
conspiracy convictions pursuant to Melchor-Lopez,
Moe, Lennink, Ramirez, Colon, Loveland and Escobar
de Bright Therefore, during the appeals process, the
petitioner’s appellate attorney failed cite the prevailing

29

law; and failed to argue the fact that the government
had not met the burden of proof pursuant to circuit
precedent, to support the petitioner’s drug conspiracy
convictions.
Both the petitioner’s trial attorney and appellate
attorney’s performance, l) fell below an objective stan­
dard of reasonableness and; 2) were prejudicial to the
petitioner. But, for the substandard performance and
unprofessional errors of both the petitioner’s trial
attorney and appellate attorney respectively, the result
of the proceedings would have been different. (See
Strickland and Kimmelman).
F.

Analysis of Judicial and Prosecutorial Misconduct

The prosecution and trial judge engaged in
misconduct which denied the petitioner Due Process
of Law, as guaranteed by the Fifth Amendment. The
trial judge was involved in the prosecutions’ pre­
indictment accusatory process and investigation of
the petitioner, by virtue of involvement in the briefings,
reviews of documents, authorization of wiretaps,
wiretap extensions and case updates. The trial judge
obtained extensive personal knowledge of the prose­
cutions’ theories, pre-trial evidence and disputed evi­
dentiary facts.
The trial judge was statutorily compelled to recuse
himself from any judicial proceedings involving the
petitioner, however, he failed to do so.
28 U.S.C. 455-Disqualification of Justice,
Judge or Magistrate Judge:
(a) Any Justice, Judge or Magistrate Judge
of the United States shall disqualify himself

30

in any proceeding in which his impartiality
might be questioned.
(b) He shall also disqualify himself in the
following circumstances:
(l) Where he has personal bias or prejudice
concerning the party, or personal knowledge
of disputed evidentiary facts concerning the
proceeding.
In addition, United States v. Zarowitz, 326 F.
Supp 90 (C.D. CA 1971) states:
“Any judge who issues orders authorizing
. .. wiretaps and who necessarily receives
five-day reports of evidence obtained in the
course thereof, should disqualify himself
from sitting upon any trial of the person
who participated in the telephone conversa­
tions ..., as well as upon any pretrial motions
to suppress such evidence.”
The court of appeals in Hurles v. Ryan, 752
F.768, 788 (9th Cir. 2014) (quoting Bracy v. Gramley.;
520 U.S. 899, 904-05 (1977)) stated:
“The Constitution requires recusal where
the ‘probability of actual bias on the part of
the judge or decision maker is too high to
be constitutionally tolerable. Id. (quoting
Withrow v. Larkin, 421 U.S. 35, 47 (1975).
The Hurles court explained: “In determining
whether the standard is satisfied, the relevant
inquiry is whether the average judge in [the
relevant] position was likely to be neutral or
whether there existed an unconstitutional
potential for bias. Id. At 789 citing Caperton

31

v. A.T Massey Coal Co., 556 U.S. 868, 881
(2009).
In addressing due process concerns, the
United States Supreme Court has ruled that
circumstances making recusal necessary
include those where a judge . . . acts as part
of the accusatory process. In re Murchison,
349 U.S. 133, 137 (1955); or becomes so
enmeshed in matters involving [a litigant]
as to make it most appropriate for another
judge to sit. Johnson v. Mississippi, 403 U.S.
212,215-16 (1971).”
Pursuant to In re Murchison (supra), The United
States Supreme Court opined”
“A fair trial in a fair tribunal is a basic re­
quirement of due process. Fairness of course
requires an absence of actual bias in the
trial of cases. But, our system of law has
always endeavored to prevent even the
probability of unfairness. To this end, no man
can be a judge in his own case and no man
is permitted to try cases where he has an
interest in the outcome. That interest cannot
be defined with precision. Circumstances
and relationships must be considered. This
court has said, however that every proce­
dure which would offer a possible temptation
to the average man as a judge . . . not to
hold the balance nice, clear and true between
the state and the accused denies the latter
due process of law. Tumey v. Ohio, 273 U.S.
510, 532 (1971).

32

Such a stringent rule may sometimes bar
trial judges who have no actual bias and
who would do their very best to weigh the
scales of justice equally between contending
parties. But, to perform its high function in
the best way, ‘justice must satisfy the appear­
ance of justice/ Offutt v. United States, 348
U.S. 11, 14 (1954)”
The trial judge willfully disregarded the essential
elements of a drug conspiracy, pursuant circuit laws
that were established in MelchoiyLopez, Moe, Lennink,
Ramirez; Colon, Loveland and Escobar de Bright^ there­
by, improperly instructing the jury on the essential
elements of a drug conspiracy. (See Cole v. Eagle, 704
F.3d 624 (9th Cir. 2012) (Jury instructions must cor­
rectly state the law and failure to do so warrants
reversal, unless the error was harmless). (See also
Walker v. Deeds, 50 F.3d 670, (9th Cir. 1995) and
Escobar de Bright, supra.
The trial judge specifically stated in reliance on
the Ninth Circuits’ Model jury instructions, “ . . . the
elements [to establish a drug conspiracy] do not require
a defendant to actually sell narcotics or make an
agreement with a buyer.” (See App.l5a, “Denial of
Petitioner’s 28 U.S.C. § 2255 Motion, last sentence of
the footnote).
The trial Judge’s reasoning is in direct conflict
with binding precedents of Melchoi^Lopez, Moe,
Lennink, Ramirez, Colon and Loveland.
The trial judge’s jury instructions materially and
constructively amended the indictment, which lessened
the government’s burden of proof. Count 11 of the
indictment charged the petitioner with “Conspiracy

33

to distribute and possess with the intent to distribute
heroin” and Count 12 “Conspiracy to distribute and
possess with the intent to distribute marijuana.”
The joining of two separate offenses, each with a
separate and distinctly different “mens rea” require­
ment as a single count, rendered the charges as
duplicitous and invalid. (See United States v. RamirezMartinez, 273 F.3d 903, 913).
However, the trial judge verbally amended the
charges on the indictment during jury instructions
to; Count 11 “Conspiracy to possess with the intent
to distribute heroin” and Count 12 “Conspiracy to
possess with the intent to distribute marijuana”.
Thus, lessened the government’s burden of proof. (See
United States v, Adamson, 291 F.3d 606, 614 (9th Cir.
2002)). The errors committed by the trial judge denied
the petitioner Equal Protection of the Law and Due
Process of Law as guaranteed by the Fifth Amendment.
The prosecution willfully and deliberately disre­
garded the essential elements of a drug conspiracy,
pursuant the circuit laws established in MelchorLopez, Moe, Lennink, Ramirez, Colon, Loveland and
Escobar de Bright^ and misrepresented the extra­
judicial and uncorroborated telephone calls and text
messages between the petitioner and the three alleged
co-conspirators as, sufficient evidence to sustain a
drug conspiracy conviction.
The prosecution’s entire case in chief portrayed
the co-defendants as “material” and “essential” in the
alleged drug conspiracies against the petitioner. How­
ever, the prosecution inexplicably failed to call any
co-defendant to testify against the petitioner, thus
failed to establish the essential elements of a drug

34

conspiracy; a) An agreement to redistribute [the
drugs in question] and; b) The intent to commit a
criminal offense [Meeting of the Minds].
The government’s case against the petitioner
lacked constitutionally sufficient evidence to sustain
a drug conspiracy conviction, but for the conduct of
the prosecution adopting, shifting, and misleading
facts of law, no conviction would have been obtained
or successfully defended on appeal. (See Siddiqi v.
United States, 98 F.3d 1427 (2nd Cir. 1999) (Convic­
tion had no legitimate factual or legal basis and ... but
for the conduct of the prosecution in adopting, shifting,
and at times misleading positions, no conviction
would have been obtained or successfully defended
on appeal.))”
The government’s conduct during the prosecution
of the petitioner so infected the trial with unfairness
that it made the resulting conviction a denial of Due
Process. (See Darden v. Wainwright, 477 U.S. 168
(1986).

35

*

REASONS FOR GRANTING THE PETITION
“The unjust deprivation, for a single hour of one
man’s liberty, creates a debt that can never be repaid.”
Johnson v. United States, 218 F.2d 578, 580 (9th Cir.
1954) (Stephens, J. concurring).
The Ninth Circuit court of appeals failed to cor­
rect the district court’s violations of the petitioner’s
Constitutional Rights to Equal Protection of the Law,
Due Process of Law and from being subjected to cruel
and unusual punishment (false imprisonment), as
guaranteed by the Fifth, Sixth and Eighth amend­
ments of the United States Constitution. (Also see
Fiore v. White, supra, (per curiam) granting federal
habeas corpus relief because prosecution failed to
present sufficient evidence to prove an element of the
crime and therefore, petitioner’s conviction was not
consistent with the demands of the federal due
process clause and Jackson v. Virginia, supra.).
Failure to correct these Constitutional violations,
would result in the right to Equal Protection of the
Law, Due Process of Law and protection from the
infliction of cruel and unusual punishment, no longer
being held as Constitutional guarantees, but mere
conveniences to be indiscriminately extended to some
and denied to others, based solely on the will of a
particular judge or decisionmaker; thereby, inviting
more mistakes in the application of laws to occur.

36

CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully submitted,

Keith Foster
Petitioner Pro Se
P.O. BOX 12706
Fresno, CA 93779
(559) 412-7945
TKFOSTER1002@GMAIL.COM

August 12,2021

